WR-B-OO-02


        AUDIT
       REPORT

                              PROPERTY AND FACILITIES AT
                                  GRAND JUNCTION




 U.S. DEPARTMENT OF ENERGY
                                     DECEMBER 1999
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                                                 December 10, 1999

                   MEMORANDUM FOR THE MANAGER, ALBUQUERQUE OPERATIONS OFFICE

FROM:                      Lawrence R. Ackerly, Regional Manager (Signed)
                           Western Regional Audit Office
                           Office of Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Property and Facilities at Grand Junction"

BACKGROUND

At the end of the Cold War, the Department of Energy (DOE) reevaluated and restructured its Nuclear Weapons
Complex. These activities ultimately resulted in downsizing a number of sites within the Complex. Although not a
nuclear weapons site, Grand Junction became a candidate for downsizing because its missions--environmental
restoration and waste management activities--were nearing completion. Its continuing missions, which include the
long-term surveillance and monitoring of remediated sites, will not require that Grand Junction use all its property
and facilities. Because Albuquerque Operations Office (AL) officials have a continuing responsibility over the site,
this audit was conducted to determine whether these officials were making premature decisions regarding the reuse
of property and facilities at the Grand Junction site.

RESULTS OF AUDIT

Management officials were making premature decisions regarding the reuse of property and facilities at the Grand
Junction site. For instance, they decided to transfer all the property and facilities to a local community entity except
one building that will be transferred to the U.S. Army Reserves by September 30, 2000. These decisions were
made before AL had completely analyzed its own future needs for space and determined if other agencies would be
interested in reusing unneeded space. Although DOE is committed to assisting local communities adversely affected
by downsizing, one way to accomplish that objective is to identify other Federal uses for the facilities. That was not
done. Instead, AL focused on the interest the local community had in acquiring the site.

While we recognize that analytical results represent only one aspect of informed decisionmaking, we believe it is an
important one. We are concerned, therefore, that without a thorough analysis, DOE will have no assurance and, in fact,
may not be able to justify that its decisions are in the best interest of the government, the taxpayers, or the local community.

MANAGEMENT REACTION

Management generally did not concur with the finding or recommendations because it contends that it has made only general
rather than specific decisions to dispose of the property.
PROPERTY AND FACILITIES AT GRAND JUNCTION

TABLE OF
CONTENTS



                Overview

                Introduction and Objective.......................................................1


                Conclusions and Observations ..............................................1


                Decision On Real Property


                Details of Finding.....................................................................3


                Recommendations and Comments.......................................6


                Appendix


                Scope and Methodology.........................................................8
Overview
INTRODUCTION      As the Department of Energy (DOE) began evaluating and restructuring its
AND OBJECTIVE     Nuclear Weapons Complex, the need to downsize facilities that were not fully
                  utilized became apparent. Although Grand Junction was not a nuclear weapons
                  production site, it became a candidate for downsizing. Historically, this site
                  supported many of DOE's environmental management programs. However,
                  much of the environmental restoration and waste management work was nearing
                  completion. The work remaining includes the long-term surveillance and
                  monitoring program, the uranium mill tailings groundwater project, the Pinellas
                  environmental restoration program, the Monticello surface and groundwater
                  project, and the uranium leasing program. As a consequence of the reduced
                  mission, the property and facilities at the Grand Junction site will no longer be
                  fully utilized. To reduce the impact that downsizing may have on the local
                  community, the Albuquerque Operations Office (AL) began actions to transfer
                  property and facilities to the local community. The objective of this audit was to
                  determine whether officials were making premature decisions regarding the
                  reuse of property and facilities at the Grand Junction site.

                  Management officials were making premature decisions regarding the reuse of
CONCLUSIONS AND   property and facilities at the Grand Junction site before having all the necessary
OBSERVATIONS      information. For example, AL made decisions to dispose of property and
                  facilities before determining the space needed to perform Grand Junction's
                  continuing missions, identifying excess facilities, and determining if other Federal
                  agencies have a need for those facilities. Thus, those decisions may not be in
                  the best interest of the government, the taxpayers, or the local community.

                  Prior Office of Inspector General (OIG) reports have also shown the need for
                  more thorough analyses before making decisions concerning real property. For
                  example, the report, The U. S. Department of Energy’s Facility Reuse at the
                  Rocky Flats Environmental Technology Site, DOE/IG-0425, dated August
                  1998, stated that the Rocky Flats Field Office scheduled all site facilities for
                  demolition without having formally analyzed their reuse potential. Another
                  report, Audit of Shutdown and Transition of the Mound Plant, DOE/IG-
                  408, dated June 1997 showed that DOE decisionmakers did not have all the
                  data needed to make informed judgments on the most effective location for
                  future isotopic heat sources and radioisotope thermoelectric generators
                  operations. Finally, the Audit of the Deactivation, Decontamination,




Page 1                                                   Introduction And Objective/
                                                         Conclusions And Observations
         and Disposal of Surplus Facilities at the Savannah River Site,
         ER-B-98-01, October 1997, showed that DOE did not economically
         or promptly deactivate, decontaminate, or dispose of surplus facilities. This
         occurred because AL did not compile a sitewide list, establish priorities, or
         provide sufficient funding. The common theme among these reports and
         AL’s actions on Grand Junction property and facilities is that the responsible
         DOE office did not properly plan its actions with respect to disposition of
         government property.

         The audit identified issues that management should consider when preparing
         its yearend assurance memorandum on internal controls.




                                            ________(Signed)_______
                                            Office of Inspector General




Page 2                                          Conclusions And Observations
DECISIONS ON REAL PROPERTY
Determination Of Real   AL made premature decisions regarding the reuse of its Grand Junction property
Property Needs And      and facilities. It was decided, with one exception, to transfer all facilities and
Uses                    property at the Grand Junction site to a local community entity by September 30,
                        2000. The one exception is a building that AL had previously agreed to provide
                        to the U.S. Army Reserves (Army Reserves). Beginning in September 1997, the
                        Army Reserves continuously expressed interest in using Building 28 as well as
                        using some land at the Grand Junction site. However, AL ignored these requests
                        until January 1999 when the Office of Inspector General (OIG) questioned why
                        the Army Reserves could not acquire a facility or some property located on the
                        site. The OIG pointed out that transferring site property would eliminate the Army
                        Reserves' need to lease and/or construct other facilities, thereby saving taxpayer
                        dollars. Also, other agencies, including the Bureau of Land Management, the
                        National Guard, and the Colorado Division of Wildlife, had been identified by the
                        local community entity as possibly being interested in occupying a portion of the
                        existing facilities. However, AL had not contacted those agencies or inquired
                        through the General Services Administration (GSA) if those agencies, in fact,
                        would be interested in reusing a portion of the Grand Junction site.

                        In addition, AL made the premature decision to lease five unneeded buildings to a
                        local community entity for a 5-year period. The lease of the five buildings was
                        done prior to the completion of a thorough analysis of all alternatives. Although
                        AL does have the authority to lease facilities that are unneeded, the future of those
                        facilities would normally be renegotiated at the conclusion of that period.
                        However, AL preempted future negotiations by stipulating in the lease that the
                        lessee, not AL, could decide to continue or terminate the lease. In June 1999, AL
                        eliminated any uncertainty in the future of the property by deciding to transfer all
                        property and facilities to the local community other than the building committed to
                        the Army Reserves. Thus, the future of the property and facilities at the site was
                        established.

Program Guidance        Rules governing the reuse and disposal of government property are contained in
                        documents published by the Office of Management and Budget (OMB) and DOE.
                        OMB Circular A-123, Management Accountability and Control, for example,
                        states that government resources are to be used efficiently and effectively to
                        achieve intended program results. Resources must be used consistently with
                        agency mission, in compliance with laws and regulations, and must have




Page 3                                                                            Details Of Finding
                   minimal potential for waste, fraud, and mismanagement. To achieve these
                   goals, DOE guidance stresses the importance of using analysis in the decision
                   process.

                   DOE's guide, Resourceful Reuse–Planning Future Uses of DOE Sites: A
                   Guide for DOE Programs and Real Property Managers, dated May 1996,
                   states that property transactions must be based upon sound analysis and
                   planning. Analyses are to cover the real property screening and disposition
                   process, property appraisal or rental value appraisal, environmental analyses,
                   and legal status determination. The guidance specifically states that when site
                   program managers identify real property not needed by their program, they
                   should screen other DOE site tenants for their possible need for the property.
                   If there are no site requirements for the property, Headquarters (Field
                   Management) or field elements should screen program and operations offices
                   to assess their need for the property. Site properties not required by any DOE
                   program or another government agency are to be declared excess to DOE and
                   can be leased, sold, or reported to the GSA for disposition. Federal Property
                   Management Regulations also state that each executive agency must, as far as
                   practicable, transfer excess real property to other Federal agencies. The reuse
                   guide basically applied to Defense Production sites; however, AL officials said
                   that they followed it for disposition of the Grand Junction property.

Lack Of Complete   Management made its premature decisions without the benefit of complete
Analysis           analysis to support such decisions. Further, management did not fully
                   determine if other agencies had an interest in reusing unneeded facilities,
                   consider its own future office needs, and did not determine the market value of
                   the site.

                   Management did not have all the necessary information to make decisions
                   about the reuse of property and facilities at the Grand Junction site because the
                   types of analysis for a sound decision process were not performed. Instead, its
                   real property decisions and subsequent actions were focused on local
                   community economic development. For example, Grand Junction worked with
                   a community group called the Joint Utilization Committee (JUC) on ways to
                   best reuse the property for the benefit of the community. In 1997, Grand
                   Junction officials met with the JUC to discuss ways to reuse the property to
                   promote economic development. Next, they contracted for a Strengths,




Page 4                                                                       Details Of Finding
                     Weaknesses, Opportunities and Barriers (SWOB) Analysis. This
                     analysis, however, determined the best use of the property by the
                     community rather than best use by the government.

                     Management's August 4, 1999, response to the draft report said that AL
                     would complete a more detailed analysis of its own space needs including
                     an analysis of owning versus leasing needed space. Further, a more
                     detailed analysis would determine excess facilities and the market value of
                     the site. However, the response was dated almost two months after the
                     decision was made to transfer the bulk of the site to the local community.
                     Thus, there is little assurance that the analysis, if completed, would alter
                     AL's decisions.
Costs Of Premature
                     The decision to transfer the balance of the property and facilities to the
Decisions
                     local community is consistent with DOE's philosophy to help the local
                     community mediate the impact of downsizing. However, AL's decision to
                     effect the transfer prior to completing its analysis and screening process
                     may not be in the best interest of the community or the government. If
                     AL successfully identified new government tenants for unneeded facilities,
                     Federal construction or rental costs may be avoided and the community
                     may gain a new employer. However, AL does not know if its decisions
                     are in the best interest of the community or the Federal government
                     because it did not complete its analyses or screen the property.
                     Ultimately, the community may struggle to find tenants for the property
                     even if it is acquired at no cost.

                     Since AL had not conducted all the necessary analyses, its decisions to
                     date do not appear to be in the best interest of the government or the
                     taxpayer. For instance, the five buildings were leased for about 16 cents
                     per square foot or $7,200 annually. This rate, however, was less than
                     AL's appraisal that showed estimated gross rent of $3.68 and net rent
                     (after expenses) of $1.81 per square foot annually. AL, therefore, should
                     have charged annual rent of about $79,800. The net rental rate should
                     have been used because it already included an allowance for the lessee to
                     perform maintenance and upkeep of the property.

                     Further, AL will incur additional costs to prepare Building 7 for use by
                     the Army Reserves. After not providing the Army Reserves' initial
                     request for Building 28, AL agreed to provide Building 7, which was
                     scheduled for demolition at an estimated cost of $1.5 million. To prepare
                     this facility for the Army Reserves, however, AL must now


Page 5                                                                     Details Of Finding
                  decontaminate it at an estimated cost of about $2.2 million. Thus, AL will
                  incur an additional expense of about $700,000. If AL had not focused
                  primarily on community interest, the additional expense may have been
                  avoided. Finally, AL may incur additional costs each month for lease space
                  for its remaining staff in Grand Junction if the decision to transfer the
                  remaining Grand Junction property is carried out.

RECOMMENDATIONS   We recommended that the Manager, Albuquerque Operations Office:

                  1. conduct the necessary analysis of the site and consider the needs of
                     DOE and other government agencies before taking any actions to lease
                     or dispose of unneeded, unused, surplus, or excess real property; and,

                  2. stop all decisions or actions until the necessary analysis is done to identify
                     what direction will provide the best reuse of the property excess to its
                     needs.

MANAGEMENT        Management's August 4, 1999, response to the OIG draft report generally
REACTION          did not concur with the finding or recommendations because it contended
                  that it only made a general decision to dispose of the site's property and
                  facilities and a specific decision will not be made until the analysis is
                  complete. Further, AL said that the audit was premature because most of
                  the work needed for disposition had not yet occurred. This included the
                  development of a Management Plan and analyses of AL's future space
                  needs, excess facilities, and market value of the property. Finally, a cost
                  comparison was planned and would be performed prior to disposition.

                  Also, AL stated that it has its own authority to transfer property under the
                  DOE Organization Act and the Atomic Energy Act, and it does not need to
                  follow the GSA process. However, it has checked with GSA and found that
                  other agencies had not expressed an interest in the site and neither have other
                  DOE programs.

                  Although the Grand Junction site is not a defense nuclear facility, AL said
                  that it supports the DOE philosophy of reducing the impact on a local
                  community when a downsizing occurs. Further, AL stated that the interest of
                  Federal agencies and the local community are not mutually exclusive.




Page 6                                              Recommendations And Comments
                   Finally, AL contended that the value of the lease is greater than the amounts
                   DOE will receive because the lessee will pay utility costs and maintain the
                   facilities to keep their current value. Management claimed cost savings or
                   cost avoidance by leasing the facilities because maintenance and upgrades
                   would not have to be performed.

AUDITOR COMMENTS   On June 7, 1999, AL sent a memo to Field Management that said it needed
                   much less space than it currently occupies. Thus, it concluded that the
                   appropriate course of action for the future of the Grand Junction site was to
                   transfer a small portion of the site to the Army Reserves and the balance of
                   the site to a local community entity. AL's goal is to have the site transfer
                   complete by September 30, 2000. Thus, even though a thorough analysis
                   had not been completed, a final not a general decision was made on the
                   future of the site.

                   The OIG does not dispute the authority that AL has under the two Acts, but
                   AL has not done a thorough job of determining if other agencies have an
                   interest in using the site. Further, the GSA contact was made by a local
                   community entity official not an AL official. Finally, the local community
                   entity identified several other agencies that may have an interest in using the
                   site, and AL representatives were aware of those agencies. In spite of their
                   awareness, AL made no attempt to determine if those agencies would, in
                   fact, be interested in the facilities. Instead, AL focused solely on the
                   community's own interest in the property.

                   The OIG believes it is appropriate to assist the local community during a
                   period of downsizing, and one way to achieve that objective is to thoroughly
                   screen other agencies to determine if they could possibly
                   use unneeded facilities. If so, new tenants may be able to bring employment
                   and revenue to the affected community. Since a sizeable public investment
                   has been made in the facilities at this site, the reuse of these facilities by
                   another Federal agency may benefit not only the community but the Federal
                   government as well.

                   The lessee's expenses were already factored into the reduced rental rate
                   estimated by the appraiser.




Page 7                                               Recommendations And Comments
Appendix
SCOPE         We performed the audit from November 1998 to July 1999 at the
              Albuquerque Operations Office and the Grand Junction Office located in
              Grand Junction, Colorado.

METHODOLOGY   To accomplish the audit objective, we:

                  •   reviewed OMB, DOE, and GSA guidance on disposal of property
                      and facilities;

                  •   interviewed AL and Grand Junction officials to understand their
                      procedures for proper disposal of property and facilities;

                  •   interviewed DOE Field Management officials responsible for
                      managing and planning for the reuse of excess facilities at the site;

                  •   reviewed documents concerning the reuse of excess facilities from
                      1997-1999;

                  •   reviewed Grand Junction's draft Site Transition Plan to understand
                      the analyses done or to be done to achieve proper disposal actions;
                      and,

                  •   reviewed the Government Performance & Results Act of 1993
                      and determined if performance measures were established.

              We conducted the audit according to generally accepted government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Accordingly, we assessed the significant internal
              controls and performance measures established under the Government
              Performance and Results Act related to Grand Junction's site transition.
              AL officials had established a goal to complete the site transition by the
              fourth quarter of Fiscal Year 2001. However, no performance measures
              were attached to this goal. Because we limited our review, it would not
              necessarily have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We did not rely on computer-generated
              data. Therefore, we did not examine the reliability of computerized data
              used.

              Management waived an exit conference on November 26, 1999.



Page 8                                                        Scope And Methodology
                                                                             Report No.: WR-B-00-02


                                CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore, ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                Office of Inspector General (IG-1)
                U.S. Department of Energy
                Washington, D.C. 20585
                ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
  The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the following
                                                      address:


                     U.S. Department of Energy Office of Inspector General Home Page
                                          http://www.ig.doe.gov


        Your comments would be appreciated and can be provided on the Customer Response Form
                                       attached to the report.
